D
                                                                         OCCUPATIONAL SAFETY AND

U.S. Department of Labor
I
S
C                                                                        HEALTH ADMINISTRATION
U
S
S
I
O
N                          Office of Inspector General—Office of Audit
D
R
A
F
T




                                                                         OSHA'S SITE SPECIFIC TARGETING PROGRAM
                                                                         HAS LIMITATIONS ON TARGETING AND
                                                                         INSPECTING HIGH-RISK WORKSITES




                                                                                            Date Issued:   September 28, 2012
02-A12-345-67-890                                                                        Report Number:      02-12-202-10-105
U.S. Department of Labor                                   September 2012
Office of Inspector General
Office of Audit                                            OSHA’S SITE-SPECIFIC TARGETING
                                                           PROGRAM HAS LIMITATIONS ON TARGETING

BRIEFLY…                                                   AND INSPECTING HIGH-RISK WORKSITES

Highlights of Report Number 02-12-202-10-105, issued       WHAT OIG FOUND
to the Deputy Assistant Secretary for Occupational         The SST program, to a limited extent, focused
Safety and Health.                                         enforcement resources and targeted inspections on the
                                                           highest risk industries and worksites. SST inspections
WHY READ THE REPORT                                        excluded some of the highest risk industries and
The Office of Inspector General (OIG) conducted a          worksites where the most serious injuries and illnesses
performance audit of the Site-Specific Targeting (SST)     occurred because certain high-risk worksites were
program of the Occupational Safety and Health              outside the scope of the SST program and targeted
Administration (OSHA). In 1999, OSHA initiated the SST     worksites were not always inspected.
program – an enforcement plan intended to target
general industry worksites reporting the highest injury    Specifically, we found that 26 percent of worksites with
and illness rates. The SST program selects worksites       reported severe injuries and illnesses were outside the
based on injury and illness rates calculated from          program’s scope based on their number of employees,
employer responses to the annual OSHA Data Initiative      location and/or industry. Additionally, 84 percent of
(ODI) survey. From August 2010 through September           targeted worksites were not inspected due to limited
2011, 13,827 worksites met the SST program targeting       resources and competing local priorities and other
criteria of which 2,146 (16 percent) were inspected.       targeting strategies. OSHA conducted SST inspections
                                                           at 21 percent of SST targeted worksites. State plan
WHY OIG CONDUCTED THE AUDIT                                states conducted SST inspections at 6 percent of
Our audit objectives were to answer the following:         worksites that met the Federal targeting criteria. As a
                                                           result, the program targeted inspections to only a small
1.	 To what extent did the SST program focus               portion of high-risk worksites nationwide.
    enforcement resources and inspections on the
    highest risk industries and worksites?                 Currently, the SST program is undergoing a study which
                                                           is intended to evaluate the program’s impact on
2.	 What was known about the effectiveness of OSHA’s       employee safety. Meanwhile, information on program
    program?                                               results is limited to primarily output measures such as
                                                           inspections completed and citations issued.
We examined the SST program for the period August
2010 through September 2011 which was developed            WHAT OIG RECOMMENDED
from rates using 2008 injury and illness data.             The OIG made three recommendations to the Deputy
                                                           Assistant Secretary for Occupational Safety and Health
READ THE FULL REPORT                                       to: (1) include the highest risk worksites in the ODI
To view the report, including the scope, methodology,      survey and the SST program targeting; (2) prioritize and
and full agency response, go to:                           complete inspections of the highest risk worksites to
                                                           ensure effective and efficient use of resources; and
http://www.oig.dol.gov/public/reports/oa/2012/02-12-202-   (3) complete the evaluation of the SST program, and
10-105.pdf                                                 implement a monitoring system to evaluate efficiency
                                                           and effectiveness on an on-going basis.

                                                           In his response to the draft report, the Deputy Assistant
                                                           Secretary partially agreed with our recommendations,
                                                           but indicated some would require major policy changes
                                                           with evaluation and supportive evidence.
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1


Results In Brief.............................................................................................................. 2


Objective 1 —To what extent did the SST program focus enforcement resources

             and inspections on the highest risk industries and worksites? ....... 4

         Highest risk industries and worksites were not always targeted and

            inspected......................................................................................................... 4


         Finding 1 — Certain high-risk industries and worksites were outside the

            scope of the ODI and/or SST programs .......................................................... 4

         Finding 2 — Selected worksites were not always inspected due to

            competing local priorities and other targeting strategies ............................... 11


Objective 2 — What was known about the effectiveness of OSHA’s program?.... 18

         OSHA lacked measures to evaluate effectiveness ............................................. 18


         Finding 3 — Information on the results of the SST program was limited ............ 19


Recommendations ...................................................................................................... 20


Exhibits
         Exhibit 1 States' Participation in DART, ODI and SST ....................................... 25

         Exhibit 2 Industries Included and Excluded from ODI......................................... 27

         Exhibit 3 Summary by State of Worksites Targeted and Inspected .................... 33


Appendices
         Appendix A Background ..................................................................................... 37

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 39

         Appendix C Acronyms and Abbreviations .......................................................... 43

         Appendix D OSHA Response to Draft Report .................................................... 45

         Appendix E Acknowledgements ......................................................................... 51





                                                                                                   Audit of SST Program
                                                                                            Report No. 02-12-202-10-105
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              Audit of SST Program
                                       Report No. 02-12-202-10-105
                                                         U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                               Office of Inspector General
                                                       Washington, D.C. 20210




September 28, 2012

                                  Assistant Inspector General’s Report



Dr. David Michaels
Assistant Secretary
 for Occupational Safety and Health
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

In 1999, the Occupational Safety and Health Administration (OSHA) initiated the
Site-Specific Targeting (SST) program – an enforcement plan intended to target general
industry (non-construction) worksites reporting the highest injury and illness rates. In
addition to SST, OSHA has national and local emphasis inspection programs to target
high-risk hazards and industries. The SST program selects worksites based on injury
and illness rates calculated from employer responses to the annual OSHA Data
Initiative (ODI) survey. From August 2010 through September 2011, 13,827 worksites
met the SST program targeting criteria of which 2,146 (16 percent) were inspected.

Our objectives were to answer the questions:

      	 To what extent did the SST program focus enforcement resources and

         inspections on the highest risk industries and worksites?


      	 What was known about the effectiveness of OSHA’s program?

The SST program for August 2010 through September 2011 was developed from rates
using 2008 injury and illness data. While Federal programs, ODI and SST were not
universally applied throughout the 56 states and territories (referred to as “states”). For
22 states, private industry was under the jurisdiction of local occupational safety and
health programs operating in accordance with OSHA-approved state plans.1 States with
OSHA-approved state plans (hereafter referred to as “state plan states”) were not
compelled to participate in the SST program and could elect to operate comparable
programs that target high hazard general industry worksites. See Exhibit 1 for summary
of state participation in ODI and SST.

For the audit, we assessed internal controls over the ODI survey and SST program. We
reviewed OSHA policies and procedures, and internal monitoring reports. We
1
    OSHA approved state plans for 27 states, but 5 of the 27 plans covered public employers only.

                                                                                            Audit of SST Program
                                                           1                         Report No. 02-12-202-10-105
                                                      U.S. Department of Labor – Office of Inspector General



interviewed officials from OSHA national, regional, and area offices. We examined data
reliability and information controls for ODI, SST, and OSHA information systems
through analytical procedures and verification with SST inspection documents at six
area offices. We used unaudited but publicly available information from the Bureau of
Labor Statistics (BLS) and OSHA fatality and catastrophic injury reports to illustrate the
impact of ODI and SST limitations on the universe of high-risk worksites and industries.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

RESULTS IN BRIEF

To a limited extent, the SST program focused enforcement resources and targeted
inspections on the highest risk industries and worksites. Currently, the SST program is
undergoing a study (final report expected in 2014) which is intended to evaluate the
program’s impact on employee safety. Meanwhile, information on program results is
limited to primarily program outputs such as number of inspections and citations issued.

1.	 To what extent did the SST program focus enforcement resources and
    inspections on the highest risk industries and worksites?

The SST program, to a limited extent, focused enforcement resources and targeted
inspections on the highest risk industries and worksites. From August 2010 through
September 2011, the program targeted 13,827 worksites of which 2,146 (16 percent)
received SST inspections. However, 26 percent of worksites with reported severe
injuries and illnesses for 20082 were outside the scope of the SST program because:
ODI data on worksites with 11 to 19 employees was for restricted use; the ODI sampling
frame omitted 12 states of which 8 were state plan states that elected not to participate
in the data collection; and industries such as amusement parks were not surveyed in
ODI based on program decisions using outdated information from BLS.

Furthermore, SST targeted worksites were not always inspected due to competing local
priorities and other targeting strategies.3 OSHA conducted SST inspections at 21
percent of the 8,655 SST targeted worksites. State plan states conducted SST
inspection at 6 percent of the 5,172 worksites that met the Federal targeting criteria.
While the SST program is a national program, neither OSHA area offices nor state plan
states were required to conduct SST inspections.



2
  OSHA and state plan state inspections conducted in 2008 with severe injuries and illnesses reported.
3
  In addition to the SST program, OSHA implemented both national and local “emphasis” inspection programs to
target high-risk hazards and industries.

                                                                                        Audit of SST Program
                                                        2                        Report No. 02-12-202-10-105
                                                    U.S. Department of Labor – Office of Inspector General



2. What was known about the effectiveness of OSHA’s program?

Currently, the SST program is undergoing a study (final report due in 2014) which is
intended to evaluate the program’s impact on employee safety. Meanwhile, OSHA
officials stated the SST program had an impact as it provided the sole justification for
performing comprehensive inspections at certain high-risk worksites, and resulted in
more citations per inspection (4.7 average) than other targeting programs (2.8 average)
from October 2010 through September 2011. However, because little is known about
program results except for inspections completed and citations issued, OSHA could not
be sure the SST program operated effectively. As we cited in a prior audit report,4
OSHA does not have outcomes-based performance metrics to measure effectiveness
and demonstrate the causal effect of their programs on the safety and health of
workers. While output measures such as inspection counts, citations issued, penalty
amounts, injury and illness rates, and fatality rates may be appropriate for monitoring
program activities, they do not measure the effect of these actions on improving safety
and health.

We made three recommendations to the Assistant Secretary for Occupational Safety
and Health to: (1) include the highest risk worksites in the ODI survey and the SST
program targeting; (2) prioritize and complete inspections of the highest risk worksites to
ensure effective and efficient use of resources; and (3) complete the evaluation of the
SST program, and implement a monitoring system to evaluate efficiency and
effectiveness on an on-going basis.

OSHA COMMENTS

In response to the draft report, the Assistant Secretary for Occupational Safety and
Health partially agreed to the report recommendations and provided technical
comments. For recommendation 1 on including the highest risk worksites, the Assistant
Secretary agreed with regards to encouraging states’ participation and revising the list
of industries. However, including worksites with 11 to 19 employees would require major
policy changes with evaluation and supportive evidence, and the Bureau of Labor
Statistics injury and illness rates are historically lower for small worksites than for mid-
size worksites. For recommendation 2 on prioritizing and completing inspections, the
Assistant Secretary indicated that the SST directive allows Regional Offices to consider
whether to pursue carryover inspections and that OSHA does not have evidence that
targeting would improve by using additional data. The Assistant Secretary agreed with
recommendation 3. The Assistant Secretary’s response and technical comments are
included in Appendix D in their entirety.

OIG CONCLUSION

With regards to recommendation 1, we believe OSHA should evaluate inclusion of
worksites with 11 to 19 employees as these worksites had higher average injury and

4
 OSHA Has Not Determined If State OSH Programs Are At Least As Effective In Improving Workplace Safety And
Health As Federal OSHA's Programs (OIG Report No. 02-11-201-10-105, March 31, 2011).

                                                                                     Audit of SST Program
                                                     3                        Report No. 02-12-202-10-105
                                                        U.S. Department of Labor – Office of Inspector General



illness rates than larger worksites according to ODI data. For recommendation 2, OSHA
should evaluate whether that policy is being enforced since several carryover
inspections were conducted at worksites with low injury and illness rates based on
current ODI data, and there was evidence that additional data would improve targeting.
Based on the technical comments, we corrected a typographical error in Table 10.

RESULTS AND FINDINGS

Objective 1 —		To what extent did the SST program focus enforcement resources
               and inspections on the highest risk industries and worksites?

       Highest risk industries and worksites were not always targeted and inspected.

The SST program, to a limited extent, focused enforcement resources and targeted
inspections on the highest risk industries and worksites. From August 2010 through
September 2011, the program targeted 13,827 worksites of which 2,146 (16 percent)
received SST inspections due to resource limitations and local enforcement priorities.
While we acknowledge that additional resources may not be found and local
enforcement priorities may take precedence over the SST program, we found that
resources could be used more efficiently and effectively. SST inspections excluded
some of the highest risk industries and worksites where the most serious injuries and
illnesses occurred because certain high-risk worksites were outside the scope of the
SST program and targeted worksites were not always inspected. Specifically, 26
percent of worksites with severe injuries and illnesses in 2008 were not covered by the
SST program based on their number of employees, location and/or industry.
Additionally, 84 percent of targeted worksites were not inspected due to limited
resources and competing local priorities and other targeting strategies. As a result, the
program targeted inspections to only a small portion of high-risk worksites nationwide.

Finding 1 — Certain high-risk industries and worksites were outside the scope of
            the ODI and/or SST programs

The SST program omitted certain high-risk worksites based on their number of
employees, location, and/or industry. OSHA defined risk for the SST program in terms
of two injury and illness rates: Days Away, Restricted or Transferred (DART) and Days
Away from Work Injury and Illness (DAFWII) that were developed through employer-
provided responses to the ODI survey. 5 However, 10 percent of high-risk worksites with
11 to 19 employees were not covered by the SST program because the use of ODI data
for enforcement purposes had not been approved by OMB for that range of worksite
sizes. Additionally, 10 percent of high-risk worksites in 12 states were not in the ODI
survey because 8 state plan states did not voluntarily participate in ODI and 4 U.S.
territories were outside the survey frame. Moreover, 8 percent of high-risk worksites

5
  DART and DAFWII are incidence rates that can be used to show the relative level of injuries and illnesses among
different industries, firms, or operations within a single firm. Using a common base (200,000 hours worked for 100
full-time equivalent employees) and a specific period of time (calendar year), the rates can be used to determine both
problem areas and progress in preventing work-related injuries and illnesses over several periods.

                                                                                            Audit of SST Program
                                                          4                          Report No. 02-12-202-10-105
                                                        U.S. Department of Labor – Office of Inspector General



were in 53 industries such as amusement parks that were not identified as high-risk
because the industries surveyed under ODI were basically static since 2003. As a
result, SST inspections were not always targeted at the highest risk worksites where the
most severe injuries and illnesses occurred.

To illustrate the impact of the ODI and SST scope limitations for targeting high-risk
worksites, we used 2008 OSHA and state plan state inspections with severe injuries
and illnesses reported.6 These inspections occurred in the same time frame as the
injuries and illnesses recorded for the 2009 ODI data collection and were high priority
investigations into worksite hazards by OSHA or state plan states. With the limitations
imposed based on size, location, and industry, a total of 26 percent of worksites with
severe injuries and illnesses in 2008 were not covered by the SST program. The
following table presents worksites inspected in 2008 with reported severe injuries and
illnesses and the number of injuries and illnesses in total; for the scope limitations size,
location and industry; and combined worksites outside the scope of the SST program.

                 Table 1: Worksites Inspected in 2008 with Reported Severe Injuries and Illnesses
                                                          Worksites      Percent of    Injuries and
                 Description                              Inspected      Worksites        Illnesses
                 Total Worksites                              2,291          100%             2,518
                 Worksites Outside Scope of SST                 604           26%               670

                 Worksites by Scope Limitation
                  11 to 19 Employees                             235            10%              260
                  12 States (8 state plan states)                229            10%              262
                  53 Industries                                  181             8%              200

While overall 26 percent of worksites were omitted from SST program targeting, these
worksites were concentrated more in state plan states than in states under OSHA
jurisdiction. Therefore, 30 percent of worksites in state plan states and 17 percent of
worksites in OSHA states were omitted from SST program targeting.

Worksites with 11 to 19 employees were outside the scope of SST targeting

High-risk worksites with 11 to 19 employees were excluded from SST targeting due to
the limitations on the use of ODI data for that size range. According to the SST program
directives, the program targeted worksites with 40 or more employees from
August 2010 through September 2011, and then was extended to worksites with 20 or
more employees. With that scope change, OSHA expanded the coverage of the SST
program from 50 percent to 62 percent of worksites based on 2008 inspections with
reported severe injuries and illnesses. However, some safety and health officials stated
that this change does not go far enough to reach the highest risk worksites. As a result,
10 percent of the worksites with 2008 reported severe injuries and illnesses were not
covered by the SST program. See the following table for a breakout of 2008 inspections
with reported severe injuries and illnesses in total for all worksites and by size for
worksites with less than 40 employees.
6
    OSHA provided data files of 2008 inspections from its Integrated Management Information System (IMIS) records.

                                                                                           Audit of SST Program
                                                          5                         Report No. 02-12-202-10-105
                                               U.S. Department of Labor – Office of Inspector General




                  Table 2: Worksites with 2008 Reported Severe Injuries and
                  Illnesses in Total and for Worksites with less than 40 employees
                                        Worksites    Percent of      Injuries and
                  Employees             Inspected    Worksites          Illnesses
                  All Worksites             2,291        100%               2,518

                  Worksites Less than 40
                   20 to 39                281             12%                317
                   11 to 19                235             10%                260
                   10 or Less              637             28%                682
                    Less than 40         1,153             50%              1,259

Worksites with 11 to 19 employees represented 87 of 722 (12 percent) of OSHA
inspections with reported severe injuries and illnesses, and 148 of 1,569 (9 percent) of
state plan state inspections.

Regarding the size of worksites, there are several applicable criteria and limitations.

   	 Federal regulations (29 CFR 1904.1) exempt worksites with 10 or fewer
      employees from keeping OSHA injury and illness records unless the company is
      notified in writing by OSHA or BLS.

   	 In approving the 2009 ODI survey, OMB stipulated that data collected from
      worksites with less than 40 employees would not be used for enforcement
      purposes. In 2010, OSHA received approval from OMB to use data from
      worksites with 20 or more employees for enforcement purposes.

   	 The SST program directive effective in August 2010 stated that the program was
      limited to worksites with 40 or more employees. In September 2011, SST
      program directive extended the program to worksites with 20 or more employees.

Although the SST program targeted worksites with 40 or more employees, the ODI
program collected data on smaller worksites for performance measurement purposes.
ODI collected data on 16,611 worksites that met targeting criteria for industry, and injury
and illness rates. However, worksites with the highest rates were not included in the
SST program due to regulatory exemptions or data use restrictions. Worksites with 10
or fewer employees had the highest average DART and DAFWII rates, but were exempt
under 29 CFR 1904.1. Worksites with 11 to 19 employees had the next highest rates,
but OSHA has not been approved to use their data for enforcement purposes. The table
below shows the ODI data for the number of worksites, and average DART and DAFWII
by worksite size.




                                                                                 Audit of SST Program
                                                 6                        Report No. 02-12-202-10-105
                                                     U.S. Department of Labor – Office of Inspector General



               Table 3: ODI Worksites Meeting Industry and Injury and Illness Rates
                                 7
               Targeting Criteria
               Employees      Worksites          DART      DAFWII                     Notes
               200 or more        2,168           9.51       3.91                  Included
               100 – 199          4,399          10.36       4.60                  Included
               60 – 99            3,973          10.10       5.47                  Included
               40 – 59            3,288          10.11       6.36                  Included
               20 to 39           2,241          10.07       7.18     Added to scope 9/2011
               11 to 19             445          11.49       9.84      Data Use Restricted
               10 or Less            97          20.43      19.63                 Exempted
                 All Employers  16,611           10.19       5.64

While discussing the SST program, officials in one regional office stated that 70 percent
of fatalities in their jurisdiction were from worksites with 10 or less employees. They
explained that generally these small employers do not belong to associations that
provide guidance on safety and health topics, nor seek help from OSHA. Furthermore,
these small companies have not been targeted by other OSHA inspection programs.
The regional office officials stated that while the SST program has been expanded to
include employers with 20 or more employees, it does not go far enough to reach this
at-risk group. When asked about the 20 or more employee threshold, other regional and
area office officials opinions varied on whether that was the appropriate threshold.

Worksites in 12 states (8 state plan states) were outside the scope of the ODI survey

The ODI survey, the basis for the SST program, did not include worksites in 12 states
from the sampling frame. Four states were U.S. territories and not surveyed based on a
program decision. The other 8 states were state plan states that decided not to
participate in ODI and opted to maintain comparable programs. Under OSHA directives,
state plan states were given the option to participate in the ODI and SST programs, or
maintain comparable programs. While OSHA cannot compel states to participate in
national programs such as ODI and SST, it also lacks sufficient information to evaluate
the effectiveness of states’ targeting programs. As a result, high-risk worksites may not
be targeted and inspected by the states’ programs.

While the exact number of high-risk worksites is unknown, the 12 states represented
approximately 10 percent of worksites with severe injuries and illnesses reported in
2008 and 2010. According to BLS reported data, these states account for approximately
10 percent of worksites (non-construction, 40 or more employees) and 5 of the state
plan states had higher than average statewide DART rates.8 The following table
summarizes BLS reported DART, DAFWII, worksites and employees for the states
omitted from ODI and nationwide averages/totals. The 5 states with higher than average
DART and DAFWII rates are highlighted in the table below.


7
 Average DART and DAFWII excludes data identified by OSHA as unreliable or questionable.
8
 DART and DAFWII were statewide averages from the Survey of Occupational Injuries and Illnesses. Worksites and
employees were calculated estimates for worksites with 40 or more employees from Quarterly Census of
Employment and Wages quartile data which presented the data for 20-49; 50-99, 100-249, 250-499, 500-999, and
1000 or more employees. No data available for Guam, Trust Territory of the Pacific Islands, or American Samoa.

                                                                                      Audit of SST Program
                                                      7                        Report No. 02-12-202-10-105
                                                           U.S. Department of Labor – Office of Inspector General



                     Table 4: BLS Reported DART, DAFWII, Worksites and Employees Data to
                     Compare Averages/Totals Nationwide to States Omitted from ODI
                     Description                 DART       DAFWII     Worksites    Employees
                     Nationwide                    1.8         1.1      545,359     63,110,012

                     States Omitted from ODI
                                           9
                       Alaska           SP           2.1         1.7       1,123        120,610
                       Arizona          SP           1.7         1.0       9,498      1,301,131
                       Oregon           SP           2.3         1.4       6,773        677,317
                       Puerto Rico      SP           2.9         2.8       3,135        411,188
                       South Carolina   SP           1.7         0.9       7,473        821,208
                       Virgin Islands                1.1         1.1         158         12,540
                       Virginia         SP           1.5         0.9      14,943      1,643,640
                       Washington       SP           2.5         1.7      11,206      1,269,529
                       Wyoming          SP           2.0         1.4       1,013         85,995
                         States Omitted              2.0         1.3      55,322      6,343,158

State plan states were not compelled to participate in national programs such as ODI
and SST even though those programs are recommended by OSHA. The SST program
directive, section VII-C, requires states to notify OSHA of the states’ intent to adopt SST
policies and procedures or different ones for targeting of general industry inspections.
The states’ targeting system may be based on available state data; BLS injury and
illness rate data; or ODI DART and DAFWII data. The states that did not participate in
ODI used various ways to identify and target historically high-risk industries and
employers for inspections. For example, Arizona, Oregon, and Washington used worker
compensation data, while other states used locally developed data. While many state
workers' compensation programs voluntarily provide data to OSHA, others do not. Also,
due to differences in laws and administrative systems, state data varies significantly in
content, format and accessibility.

OSHA lacks sufficient information to evaluate the comparability of the states’ programs
in identifying, targeting and inspecting the highest risk worksites. In the OIG report,
OSHA Has Not Determined If State OSH Programs Are At Least As Effective In
Improving Workplace Safety And Health As Federal OSHA's Programs; Report No.
02-11-201-10-105, March 31, 2011), we stated:

           ... OSHA has not yet designed a method to examine the impact of State
           programs on workplace safety and health to ensure they are effective, and
           to fully evaluate the merits of any program changes…. As a result, OSHA
           lacks critical information on performance, which may impact its decisions
           on policies, enforcement priorities, and funding.

As a result, high-risk worksites may not be appropriately targeted and inspected by
states’ programs. While the exact number of high-risk worksites is unknown, these
12 states accounted for 10 percent (229 of 2,291) of worksites inspected in 2008 with



9
    State has an OSHA-approved state plan that covers private industry.

                                                                                           Audit of SST Program
                                                            8                       Report No. 02-12-202-10-105
                                                        U.S. Department of Labor – Office of Inspector General



severe injuries and illnesses reported,10 and 11 percent (111 of 996) of OSHA fatality
and catastrophic injury reports in 2010.

53 industries with higher than average DART were outside the scope of the ODI survey

ODI excluded some industries with high DART rates and included others with low rates
because OSHA primarily used outdated information in selecting industries for the data
collection. The SST program directive states that ODI survey data collected is from
80,000 worksites in historically high-risk industries. To identify high-risk industries,
OSHA generally used BLS injury and illness rate data. However, the list of industries
included in ODI has been relatively static since 2003 when BLS completed a required
nationwide change in industry classification systems. OSHA has not completed that
required change due to delays in pending recordkeeping regulations and has not
updated its list of selected industries based on more recent injury and illness rates from
BLS. As a result, 8,745 worksites in 124 low-hazard industries11 were surveyed, while
worksites in 53 industries with high injury and illness rates were not. See Exhibit 2 for
the 124 low-hazard and 53 high injury and illness rate industries.

The ODI Procedures Manual exempted 56 industries from data collection because the
industries’ employers are not required to keep OSHA injury and illness records. All other
industries (such as the 53 identified on Exhibit 2) are in the scope of ODI and, except for
construction, in the scope of the SST program. The SST program directive, section
VIII-B, states:

         By applying industry and establishment-size criteria, OSHA focuses its
         data collection towards establishments [worksites] that are most likely to
         be experiencing elevated rates and numbers of occupational injuries and
         illnesses. Specifically, OSHA collects injury and illness data through the
         Data Initiative [ODI] survey from 80,000 larger establishments (40 or more
         employees) in historically high-rate [high-risk] industries.

OSHA lacks sufficient data to ensure it included industries with the highest injury and
illness rates in the ODI and SST programs. OSHA generally used historical BLS data to
identify high-risk industries by Standard Industrial Classification (SIC) codes, but this
information was last available by SIC code in 2002. Since 2003, BLS has reported injury
and illness data using the North American Industry Classification System (NAICS) – the
standard used by Federal statistical agencies in classifying business establishments,
while OSHA has continued to use the SIC code system that NAICS replaced. OSHA’s
ODI survey is based on data recorded under OSHA’s injury and illness recordkeeping
rule (29 CFR Part 1904) which defined industries by SIC. In 2001, OSHA announced
the intent to convert to NAICS codes, but cannot complete the transition until the
recordkeeping rule is amended. This rulemaking is still pending on OSHA’s regulatory

10
   Only one worksite was inspected by OSHA. The 8 state plan states accounted for 15 percent (228 of 1,569) of 

worksites inspected in 2008 with reported severe injuries and illnesses.

11
   Low-hazard industries are defined as industries with average DART rates at or below 75 percent of the national

average DART (Recordkeeping Policies and Procedures Manual; CPL 02-00-135).


                                                                                           Audit of SST Program
                                                          9                         Report No. 02-12-202-10-105
                                                        U.S. Department of Labor – Office of Inspector General



agenda as of August 2012. Until OSHA completes the transition, industry-specific injury
and illness data between OSHA and BLS is not comparable. OSHA officials stated the
industries selected for ODI have basically been static since 2002, but a few industries
were added when an emphasis program is planned.

In 2009, GAO reported the inconsistency between OSHA and BLS data systems in
Workforce Safety and Health: Enhancing OSHA’s Records Audit Process Could
Improve the Accuracy of Worker Injury and Illness Data (Report No. GAO-10-10,
October 15, 2009). In the report, GAO identified eight high hazard industries that were
excluded from OSHA targeting between 2003 and 2007. For our audit, we found four of
the eight industries had DART rates above the national average of 1.8 in 2009 and were
still not covered in the SST program.

                           Table 5: BLS Reported 2009 DART Rates for 4 Industries
                           Identified by GAO as Excluded from OSHA Targeting
                           Industry Description                                    DART
                           Amusement Parks and Arcades                               3.9
                           General Rental Centers                                    3.5
                           Coastal and Great Lakes Freight Transportation            2.8
                           Automotive Equipment Rental And Leasing                   2.2

As a result, some low-hazard industries were included in ODI while other industries with
high injury and illness rates were not. This is contrary to the objective of the ODI
collection initiative which was to compile injury and illness information from worksites in
selected high-hazard industries. While the exact number of high-risk worksites in the 53
high rate industries is unknown, some worksites reported severe injuries and illnesses:

      181 of 2,291 (8 percent) worksites inspected in 2008 with reported severe
       injuries and illnesses.12 For example, Amusement Parks and Arcades (SIC
       7996) had 9 inspections at 7 worksites with 9 injuries reported in 2008.

      200 of 996 (20 percent) fatality and catastrophic injury reports were submitted to
       OSHA in 2010. For example, the Grain and Field Beans (SIC 5153) industry had
       10 worksites with severe injuries reported in 2010 -- 6 injuries related to workers
       engulfment in grain storage bins. In August 2010, OSHA issued a hazard alert
       letter to Grain Storage Facility Operators due to fatalities in the industry from
       grain entrapment. The letter stated 38 grain entrapments were documented in
       2009 and generally occurred because of “…employer negligence, non-
       compliance with OSHA standards, and/or poor safety and health practices.”




12
  OSHA inspected 5 percent (35 of 722) of worksites in these industries, while state plan states inspected 9 percent
(146 of 1,569).

                                                                                           Audit of SST Program
                                                         10                         Report No. 02-12-202-10-105
                                                    U.S. Department of Labor – Office of Inspector General



Finding 2 — Selected worksites were not always inspected due to competing
            local priorities and other targeting strategies

SST targeted worksites were not always inspected due to competing local priorities and
other targeting strategies. OSHA selected 8,655 SST worksites but conducted
inspections at 21 percent of them. Another 5,172 worksites met Federal OSHA criteria
for SST targeting, but these worksites were located in state plan states and only 6
percent received SST inspections. In addition to the SST program, OSHA implemented
both national and local “emphasis” inspection programs to target high-risk hazards and
industries. While the SST program is a national program, neither OSHA area offices nor
state plan states were required to conduct SST inspections. As a result, selected
worksites were not always inspected.

Targeted worksites were distributed throughout 43 states and the District of Columbia13
while inspections were conducted in 35 states. The following maps and Exhibit 3
illustrate the distribution of worksites and DART rates for targeting and inspections
(indexed and grouped in four categories for presentation purposes).14 As the first map
shows, California had the highest concentration of targeted worksites at 1,491 and
average DART rate of 12.1. On the second map, Pennsylvania had the highest
concentration of inspected worksites at 219 and 11.1 average DART rate.

Using the maps in conjunction with Exhibit 3 presents the bigger picture of how well the
SST program addresses the highest risk worksites. For example, Texas had a higher
than average concentration (index of 8,141) of worksites targeted with 810 worksites
and average DART rate of 10.05. Texas had a lower than average concentration (index
of 735) of worksites inspected with 63 worksites and average DART rate of 11.66. Using
the index amounts, 9 percent of the highest risk worksites in Texas were targeted and
inspected –significantly lower than the nationwide average of 17 percent.

The maps and Exhibit 3 also highlight the importance of targeting precision in
addressing the highest risk worksites. The 8 states with higher than average
concentration (index range of 5,000 to 9,999) address 12 percent of the highest risk
worksites. Whereas, the 23 states with an average concentration (index range of 1,000
to 4,999) and the 12 states with lower than average concentration (index under 1,000)
addressed 26 percent and 20 percent, respectively, of the highest risk worksites.




13
  See Finding 1 for a discussion of the 7 states and 5 U.S. territories outside the scope of ODI and SST.

14
  Number of worksites were combined with DART rates (worksites x average DART) and indexed. Categories were: 

Highest (over 10,000); Higher than Average (5,000 to 9,999); Average (1,000 to 4,999) and Lower than Average

(under 1,000). The same categories and index ranges were used for both maps.


                                                                                      Audit of SST Program
                                                     11                        Report No. 02-12-202-10-105
                                        U.S. Department of Labor – Office of Inspector General



                 Distribution of Worksites Targeted and Inspected




OSHA inspected 21 percent of targeted worksites

OSHA inspected 1,813 of the 8,655 targeted SST worksites; however, these inspections
were not always of worksites with the highest DART rates. This occurred because local

                                                                        Audit of SST Program
                                         12                      Report No. 02-12-202-10-105
                                                          U.S. Department of Labor – Office of Inspector General



priorities, limited inspection resources, and sampling design impacted the number and
average DART rates for worksites inspected. According to the SST directive, the area
office determines the number of worksites inspected and selects the specific worksites
by random sample. As a result, inspections conducted were not always at worksites
with highest DART rates.

According to regional and area office officials, area offices have inspection goals that
are established based on professional judgment, experience with employers in the area,
and inspection priorities. If SST inspections are part of the goals, the area offices will
select a random sample of worksites and can complete the inspections in any order.
The SST directive part XI.A states:

           Area Offices will base their determination of cycle [sample] size (i.e., 5 to
           50 establishments [worksites]) on consideration of available resources and
           geographic range of the office. Larger cycle sizes will allow greater
           flexibility and efficiency of scheduling, but once begun, the cycle must be
           completed.

Samples are selected from two lists of SST targeted worksites – the “Primary” and
“Secondary” lists. The Primary list contains the targeted worksites with the highest
ranges of DART and DAFWII rates, while the Secondary list contains targeted worksites
with lower rates. The ranges of DART and DAFWII rates for the Primary and Secondary
lists also factor in the type of industry: manufacturing, nursing and personal care
facilities, and non-manufacturing. Worksites must meet at least one of the minimum
values for DART or DAFWII to be included on the lists.

                   Table 6: Minimum DART and DAFWII rates for Primary and Secondary
                   Lists of SST targeted worksites (by group)
                                                                  Primary List        Secondary List
                   Group                                        DART    DAFWII       DART   DAFWII
                   Manufacturing                                  7.0       5.0        5.0        4.0
                   Nursing and Personal Care Facilities          16.0      13.0       13.0       11.0
                   Non-manufacturing                             15.0      14.0        7.0        5.0

Nationwide, OSHA targeted 8,655 worksites15 in 44 states and conducted SST
inspections at 1,813 worksites (21 percent) in 28 states. The inspected worksites had
DART rates that averaged 11.0. Note that as the percentage of worksites inspected
increases, the average DART rate decreases because samples are first taken from the
higher-rate Primary list and then the lower-rate Secondary list. For the worksites
inspected, 73 percent were targeted on the Primary list (average DART rate of 12.1)
and 27 percent were targeted on the Secondary list (average DART rate of 8.2). While
overall worksites inspected were 21 percent of worksites targeted, 33 percent of
worksites on the Primary list were inspected and 11 percent of worksites on the
Secondary list were inspected. The following chart presents a state-level summary of
SST worksites inspected.

15
     Includes some worksites in state plan states where OSHA has jurisdiction, such as U.S. Post Offices.

                                                                                             Audit of SST Program
                                                           13                         Report No. 02-12-202-10-105
                                                       U.S. Department of Labor – Office of Inspector General




One factor that impacted the number of inspections completed was the availability of
area office resources to conduct SST inspections. OSHA regional and area office
resources were allocated with the highest priority on inspections initiated in response to
fatality investigations, formal complaints, referrals, and other situations that pose a risk
to the safety and health of workers. Lower priority was given to programmed inspections
such as SST and national, regional, and local emphasis programs. The impact of high
priority inspections on inspection resources varied based on the characteristics of
industries, employers and workers in local areas.

Another factor is the uneven distribution of the targeted worksites due to the industries
in the areas and the worksites’ reported DART rates. The number of targeted worksites
by area office ranged from 6 to 109.16 To compound these variances, some area office
with high numbers of targeted worksites also had a backlog of SST inspections from
prior year targeting plans. For instance, 84 percent of SST inspections for the audit
period were targeted in 2010 while the remaining was targeted as far back as 2002. In
total, 51 inspected worksites were targeted for the SST programs in 2002 through 2007
and some of these worksites were not high-risk in 2010. By comparing ODI survey
responses and inspection statistics, the 51 carryover worksites had lower DART rates
(averaging 9.58 versus 10.98) and resulted in less citations per worksite (averaging 4.4
versus 5.7) than worksites targeted for the SST program in 2010. While the directive
required area offices to complete a sample once its drawn, periodic assessments of
open cases would allow OSHA to determine the benefit of completing the inspections.
For example, Toledo Area Office closed an inspection in 2010 for a worksite sampled in
2002. Records indicated no inspection was complete as the company was out of
business.


16
  OSHA’s SST sampling plan required area offices to select a minimum of 5 targeted worksites for inspections.
Therefore, only area offices with 5 or more targeted worksites were considered.

                                                                                         Audit of SST Program
                                                        14                        Report No. 02-12-202-10-105
                                                     U.S. Department of Labor – Office of Inspector General



Because of these two factors, there is an uneven workflow. For the 83 area offices with
targeted worksites, 4 area offices inspected over 50 percent of their targeted worksites
while 20 area offices conducted no SST inspections. The following chart presents an
area office level summary. 17




For example, Augusta Area Office in Maine completed 98 SST inspections. Augusta
officials explained that workers in the area generally do not file complaints. Therefore,
Augusta used OSHA targeting programs such as SST to select worksites to inspect. As
a result, Augusta inspected 96 of 115 (83 percent) of worksites targeted in 2010 plus 2
carryover inspections from 2009. In contrast, Houston South completed two SST
inspections because other programs were considered higher priority. As a result,
Houston South completed 1 of 56 (2 percent) of worksites targeted in 2010 plus 1
carryover inspection from 2008.

As a result the SST program is unevenly applied as the higher-risk worksites were not
always inspected on a nationwide basis. For the 16 states and 20 area offices with no
SST inspections, the targeted worksites had average DART rates of 9.42 and 9.66,
respectively. For example, OSHA targeted eight worksites with DART rates between
5.29 and 12.84. These worksites were not inspected and reported work-related fatalities
or catastrophes during the audit period. Meanwhile, OSHA inspected 186 targeted
worksites with DART rates less than 5.29 ; and resulted in less citations per inspection
(average 4.1) than were generally issued for the SST program (average of 4.7).

While we acknowledge that additional resources may not be found and local
enforcement priorities may take precedence over the SST program, resources could be
used more efficiently and effectively through improved targeting precision. For example,
using DART and DAFWII for targeting resulted in inspections with lesser gravity hazards
– 69 percent of the citations were for serious hazards, of which only 6 of the 69 percent
17
     The chart includes only those area offices (83) that had targeted worksites for the 2010 program.

                                                                                      Audit of SST Program
                                                      15                       Report No. 02-12-202-10-105
                                                    U.S. Department of Labor – Office of Inspector General



were for high-gravity hazards (likely to result in serious injury or death). As suggested
by some OSHA officials, targeting could be improved with information on injury types
and severity of injuries and illnesses. In addition to the information needed to calculate
the DART and DAFWII rates, ODI collected minimal information on the days away from
work or transferred, and the numbers of injuries, skin disorders, respiratory conditions,
poisonings, hearing loss, and occupational illnesses. However, that information was not
used for SST targeting.

For example, while the Primary targeting list had higher DART and DAFWII rates than
the Secondary targeting list, it does not take into consideration the length of time
workers were out of work or transferred to another job while they recuperate. By
calculating the case averages for number of days away and number of days transferred,
we observed that the worksites on the Primary list had lower case averages than
worksites on the Secondary list. Although worksites on the Primary list have higher
frequency of injuries and illnesses (higher DART and DAFWII rates), the worksites on
the Secondary list have injuries and illnesses that take longer to recuperate (higher
case averages). See the following table for a summary of worksites targeted and
inspected with statistics for DART, DAFWII, case average days away and case
averages days transferred.

               Table 7: Worksites Targeted and Inspected – Overall and for Primary and
               Secondary Lists with Statistics for DART and DAFWII, and Case Average Days
                                                         18
               Away and Case Average Days Transferred
                                                           Case Average        Case Average
                                      DART DAFWII            Days Away      Days Transferred
               Worksites Targeted
               Overall Average            9.8       4.9              29                   31
               Primary List             11.9        5.9              27                   27
               Secondary List             8.0       4.0              30                   34

               Worksites Inspected
               Overall Average           11.0        5.5               27                   27
               Primary List              12.1        6.0               25                   24
               Secondary List             8.2        4.0               33                   35


The following are examples of employers with targeted worksites that were not
inspected, and where there was a work-related fatality or catastrophe reported in 2011.

     	 Arcelor Mittal had two worksites targeted for SST that were not inspected, and
        had fatal injuries after August 2010. One area office completed 17 percent of its
        targeted SST inspections while the other area office completed none. While the
        two worksites had DART rates of 5.35 and 5.29, the case averages for days
        away and days transferred were higher than the averages for the Primary list.
        One site averaged 41 days away and 44 days transferred per case. The other
        site averaged 33 days away and 32 days transferred.


18
  DART, DAFWII and per case averages were calculated from ODI data excluding data considered unreliable or
questionable. Per Case Average Days Away = total days away / number of cases with days away. Per Case
Averaged Days Transferred = total days transferred / number of cases transferred.

                                                                                      Audit of SST Program
                                                      16                       Report No. 02-12-202-10-105
                                               U.S. Department of Labor – Office of Inspector General



   	 Tyson Foods had a catastrophic release of chlorine gas that exposed 173
      employees. News reports indicated that at least five employees were put in
      intensive care units for respiratory issues. The worksite was targeted under the
      SST program but the area office did not complete any SST inspections. This
      worksite had average DART and DAFWII rates of 6.0 and 1.8. However, the case
      average days away were 14 and days transferred were 57.

State plan states inspected 6 percent of worksites meeting targeting criteria

Of the 22 state plan states, 6 states adopted the Federal SST program and conducted
SST inspections at 6 percent of worksites meeting the targeting criteria. According to
the SST directive, these states are not required to participate in SST, collect ODI data
or use ODI data in targeting worksites. Because of this flexibility, 8 states did not
participate in either the ODI or SST programs (Finding 1); while another 8 states
participated in ODI but did not conduct SST inspections. As a result, hazardous
worksites at 16 states were not addressed through the SST program and few high-risk
worksites in 6 states were inspected.

The SST program directive, part VII-c required states to notify OSHA whether they
intend to adopt policies and procedures identical to SST to target the higher risk
worksites. Otherwise, for general industry inspections, states can adopt or maintain
different policies and procedures to target worksites based on available state data; BLS
injury and illness rate data, or ODI DART and DAFWII data.

While 6 states participated in the SST program and inspected 430 worksites, there was
some variety in the states’ programs as 331 worksites (77 percent) met OSHA’s criteria
for targeting. For example, construction worksites were not a part of the Federal SST
program but represented 18 percent of states’ SST inspections with the majority of
those worksites in Maryland. The following table demonstrates the DART, DAFWII,
worksites inspected and the percent the states’ SST inspections were consistent with
OSHA’s SST targeting criteria.

                Table 8: State Plan States with Worksites Inspected --DART, DAFWII,
                Worksites Inspected, and Consistency with OSHA SST Criteria
                                                                      Consistency
                                                       Worksites       with OSHA
                State             DART      DAFWII     Inspected      SST Criteria
                Indiana             8.3        3.8            59              56%
                Iowa               12.4        4.8           113              83%
                Maryland           12.8        4.5            40              38%
                North Carolina      9.1        3.7           188              89%
                Tennessee           9.8        3.5            21              86%
                Vermont             7.7        5.5             9              33%
                 State Totals      10.1        4.1           430              77%

Eight states participated in ODI survey collection, but did not conduct any SST
inspections. According to the directive, these states were to maintain their own program
to target high-risk industries. While the states’ targeting programs were outside the

                                                                                Audit of SST Program
                                                17                       Report No. 02-12-202-10-105
                                                 U.S. Department of Labor – Office of Inspector General



scope of this audit, these 8 states account for 3,202 of 5,172 or 62 percent of targeted
worksites using OSHA SST targeting criteria.

             Table 9: Targeted Worksites for State Plan States in ODI but With No SST
             Inspections (DART, DAFWII, Worksites, and Employees per ODI)
             States                     DART      DAFWII     Worksites     Employees
             All state plan states       10.6        4.5         5,172       806,808

             With No SST Inspections
              California                  12.1         4.5        1,471        228,411
              Hawaii                       9.4         8.2           59         11,731
              Kentucky                    10.5         5.0          329         57,999
              Michigan                     9.9         4.2          704        107,728
              Minnesota                   10.5         4.6          401         61,517
              Nevada                      10.4         4.7           65         10,323
              New Mexico                  12.8         5.9           54          6,014
              Utah                        10.4         3.2          119         17,710
                 State Totals             10.8         4.5        3,202        501,433

As mentioned in Finding 1, OSHA lacks sufficient information to evaluate the
comparability of the states’ programs in identifying, targeting and inspecting the highest
risk worksites. For example, California State Plan (Cal/OSHA) participated in ODI with
over 8,000 worksites surveyed, but did not conduct SST inspections. Cal/OSHA’s
targeting system uses workers’ compensation data. Letters are sent to employers with
high workers’ compensation losses requesting a written plan to reduce injuries and
illnesses. Based on their responses, employers may be placed on a secondary
inspection list for random selection or on a primary list for inspections conducted by a
special High Hazard Inspection Unit. The state’s Enhanced Federal Annual Monitoring
and Evaluation Report for the period October 2010 through September 2011 contained
some limited information on high hazard inspections. The report indicated Cal/OSHA
exceeded their goal with 557 inspections in high hazard industries, but fatalities
increased and DART rates were unchanged from the prior years. The report concluded
that Cal/OSHA may need to concentrate more efforts towards high hazard worksites.
For example, an employer in California reported a fatal accident in February 2011 at a
worksite that would have been targeted for SST if located in a state under Federal
jurisdiction. A sanitation worker at Central Valley Meat was killed when his neck was
broken in a meat blender accident. He was cleaning the meat blender when another
employee turned it on, thinking that the machine was empty. Cal-OSHA investigated the
accident and found the company did not ensure the machine was de-electrified and
locked out so workers could not accidentally turn on the machine.

Objective 2 — What was known about the effectiveness of OSHA’s program?

                    OSHA lacked measures to evaluate effectiveness

Currently, the SST program is undergoing a study (final report expected in 2014) which
is intended to evaluate the program’s impact on employee safety. Meanwhile, OSHA
officials stated the SST program had an impact as it provided the sole justification for

                                                                                 Audit of SST Program
                                                  18                      Report No. 02-12-202-10-105
                                                    U.S. Department of Labor – Office of Inspector General



performing comprehensive inspections at certain high-risk worksites, and resulted in
more citations per inspection (4.7 average) than other targeting programs (2.8 average)
from October 2010 through September 2011. However, OSHA is not able to ensure the
SST program operated effectively because information on program results is limited. As
we cited in a prior audit report,19 OSHA does not have outcomes-based performance
metrics to measure effectiveness and demonstrate the causal effect of their programs
on the safety and health of workers. While output measures (inspection counts, citations
issued, and penalty amounts), injury and illness rates, and fatality rates may be
appropriate for monitoring program activities, they do not measure the effect of these
actions on improving safety and health at high-risk worksites.

Finding 3 — Information on the results of the SST program was limited

While the SST program is proactive and can have great impact on future improvement
of safety and health and efficient resource management, information on the results of
the SST program is limited. According to the SST directive, OSHA established the SST
program to assist in reducing the amount of injuries and illnesses in the workplace.
However, OSHA has not assessed the SST program and output measures are not
sufficient to conclude on program efficiency and effectiveness. As a result, OSHA may
not be readily able to demonstrate the program’s impact on the safety and health of
workers.

The SST Directive does not require an assessment to detect risk that the program is not
reducing the number of injuries and illnesses. OMB Circular A-123 states:

        Periodic assessments should be integrated as part of management’s
        continuous monitoring of internal control, which should be ingrained in the
        agency’s operations. If an effective continuous monitoring program is in
        place, it can level the resources needed to maintain effective internal
        controls throughout the year.

OSHA’s current study of the SST program is designed to assess the program’s impact
on employer compliance. Specifically, the study was designed to determine the impact
of SST program inspections, employer characteristics that are strong indicators of future
compliance, and best practices and measures to reduce future occupational injuries and
illnesses among employers. The study included three test groups in which employers
would either (1) not receive a warning letter, (2) only be sent a letter, or (3) both receive
a letter and an inspection. Employers, excluding those under jurisdiction of state plan
states, were selected using a stratified random sample.

Meanwhile, information on program impact is limited to primarily output measures. For
example, OSHA and state plan states inspected 2,146 SST worksites and issued 9,660
citations of which 6,574 were serious, willful or repeat violations. The following table


19
  OSHA Has Not Determined If State OSH Programs Are At Least As Effective In Improving Workplace Safety And
Health As Federal OSHA's Programs (OIG Report No. 02-11-201-10-105, March 31, 2011).

                                                                                     Audit of SST Program
                                                     19                       Report No. 02-12-202-10-105
                                                 U.S. Department of Labor – Office of Inspector General



summarizes worksite statistics in total and for the three target industry groups
(Manufacturing, Non-Manufacturing, and Nursing).

       Table 10: Selected Worksite Statistics for SST Inspections
       Description of Selected Statistics          Total      Manu.     Non-Manu.    Nursing
       Worksite Type                               100%         67%          24%         9%
       Average DART rate                           10.86        9.45        12.17      17.88
       Scope – Comprehensive                        83%         81%          88%        81%
       Average Penalty per Worksite               $5,043      $6,179       $2,983     $2,138
       Average Citations per Worksite                 4.0         4.8          2.5        2.6
        High Gravity Citations                       6%          7%           5%         1%
        Low Gravity Citations                       56%         53%          63%        69%

In addition, regional and area office officials provided the following comments regarding
the program’s successfulness.

   	 OSHA sends out letters to approximately 15,000 employers with the highest
      DART rates to encourage them to seek advice on how to reduce their injury
      rates. These “high-rate” letters lead to an increase in consultation requests from
      employers and keep employers focused on safety.

   	 Significant SST inspections (over $100,000 in penalties) create public awareness
      and have a deterrent effect.

   	 SST inspections increase the visible presence of OSHA in the worksites.

   	 SST inspections are used to educate small employers.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Occupational Safety and Health:

   1.	 Include the highest risk worksites in the ODI survey and SST program targeting
       by:

          a.	 Expanding coverage of ODI through negotiations on the use of data from
              worksites with 11 to 19 employees for enforcement purposes.

          b.	 Encouraging more state plan states to consider participation in the ODI
              survey and SST inspections through outreach efforts on the merits of the
              programs.

          c.	 Revising the list of industries included in the ODI survey based on current
              BLS injury and illness data.




                                                                                 Audit of SST Program
                                                  20                      Report No. 02-12-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



   2.	 Prioritize and complete programmed inspections of the highest risk worksites to
       ensure effective and efficient use of resources. In prioritizing inspections, OSHA
       should

          a.	 Evaluate whether to pursue target worksites that carryover for two or more
              years. In addressing this recommendation, OSHA should consider the
              worksite’s DART and DAFWII for the current year.

          b.	 Use additional data to improve targeting precision such as the average
              number of days away and average number of days transferred, and/or
              other information collected in ODI.

   3.	 Complete the evaluation of the SST program, and implement a monitoring

       system to evaluate efficiency and effectiveness on an on-going basis.


We appreciate the cooperation and courtesies that OSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                           Audit of SST Program
                                            21                      Report No. 02-12-202-10-105
                  U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                                  Audit of SST Program
                   22                      Report No. 02-12-202-10-105
            U.S. Department of Labor – Office of Inspector General




Exhibits





                                            Audit of SST Program
             23                      Report No. 02-12-202-10-105
               U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                               Audit of SST Program
                24                      Report No. 02-12-202-10-105
                                                     U.S. Department of Labor – Office of Inspector General



                                                                                               Exhibit 1
States' Participation in DART, ODI and SST

A. OSHA Jurisdiction for Private Industry Employers (including five state plan states where the state
   has jurisdiction for public employers only). “X” indicates worksites in the state were surveyed for the
   2009 ODI program and inspected under the 2010 SST program.

                   Table 1-A: States under Federal OSHA Jurisdiction
                   Participation in the ODI Survey and SST Inspections Programs
                          State                               ODI             SST
                      1   Alabama                              X               X
                      2   Arkansas                             X               X
                      3   Colorado                             X               X
                      4   Connecticut                          X               X
                      5   Delaware                             X               X
                      6   Florida                              X               X
                      7   Georgia                              X               X
                      8   Idaho                                X               X
                      9   Illinois                             X               X
                     10   Kansas                               X               X
                     11   Louisiana                            X               X
                     12   Maine                                X               X
                     13   Massachusetts                        X               X
                     14   Mississippi                          X               X
                     15   Missouri                             X               X
                     16   Montana                              X               X
                     17   Nebraska                             X               X
                     18   New Hampshire                        X
                     19   New Jersey                           X               X
                     20   New York                             X               X
                     21   North Dakota                         X               X
                     22   Ohio                                 X               X
                     23   Oklahoma                             X               X
                     24   Pennsylvania                         X               X
                     25   Rhode Island                         X               X
                     26   South Dakota                         X               X
                     27   Texas                                X               X
                     28   West Virginia                        X               X
                     29   Wisconsin                            X               X
                     30   American Samoa
                     31   District of Columbia                  X
                     32   Guam
                     33   Trusted Territory of the
                               Pacific Islands
                     34   Virgin Islands
                          Counts                               30              28




                                                                                     Audit of SST Program
                                                      25                      Report No. 02-12-202-10-105
                                                    U.S. Department of Labor – Office of Inspector General


B. State Plan States with Jurisdiction for Private Industry Employers (excluding five state plan
   states where the state has jurisdiction for public employers only). “X” indicates worksites in the state
   were surveyed for the 2009 ODI program and inspected under the 2010 SST program.

                   Table 1-B: State Plan States
                   Participation in the ODI Survey and SST Inspections Programs
                         State                               ODI              SST
                     1   Alaska
                     2   Arizona
                     3   California                           X
                     4   Hawaii                               X
                     5   Indiana                              X                 X
                     6   Iowa                                 X                 X
                     7   Kentucky                             X
                     8   Maryland                             X                 X
                     9   Michigan                             X
                    10   Minnesota                            X
                    11   Nevada                               X
                    12   New Mexico                           X
                    13   North Carolina                       X                 X
                    14   Oregon
                    15   South Carolina
                    16   Tennessee                            X                 X
                    17   Utah                                 X
                    18   Vermont                              X                 X
                    19   Virginia
                    20   Washington
                    21   Wyoming
                    22   Puerto Rico
                             Counts                           14                6




                                                                                     Audit of SST Program
                                                     26                       Report No. 02-12-202-10-105
                                                        U.S. Department of Labor – Office of Inspector General



                                                                                                          Exhibit 2
Industries Included and Excluded from ODI

A.	 124 Low-Hazard Industries Included in ODI – Low-hazard industries are defined as industries with
    average DART rates at or below 75 percent of the national average DART (Recordkeeping Policies
    and Procedures Manual; CPL 02-00-135).

Table 2-A: 124 Low-Hazard Industries Included in ODI
                            20                                                              21
2009 DART Rate from BLS and Total Worksites and Average DART Rate from the 2009 ODI Survey
NAICS                                                                          BLS   ODI Survey
                               22
Code    Industry Description                                                  DART  Worksites DART
211111 Crude petroleum and natural gas extraction                               0.9        11   3.3
212313 Crushed and broken granite mining and quarrying                          0.9         1   3.0
213112 Support activities for oil and gas operations                            1.0        43   2.9
221111 Hydroelectric power generation                                           0.8         1   0.0
221113 Nuclear electric power generation                                        0.3         1   0.0
221119 Other electric power generation                                          1.3        27   3.7
237120 Oil and gas pipeline and related structures construction                 1.0      134    2.0
311221 Wet corn milling                                                         1.0        23   2.2
311811 Retail bakeries                                                          0.9         2   0.9
311930 Flavoring syrup and concentrate manufacturing                            1.1        37   3.8
313241 Weft knit fabric mills                                                   0.9         8   3.4
313249 Other knit fabric and lace mills                                         0.9        16   2.0
314911 Textile bag mills                                                        0.6        22   2.2
315111 Sheer hosiery mills                                                      1.0        27   1.3
315191 Outerwear knitting mills                                                 1.1        54   1.5
315192 Underwear and nightwear knitting mills                                   1.2        12   1.7
321213 Engineered wood member (except truss) manufacturing                      1.3        13   2.7
322110 Pulp mills                                                               1.2        26   2.4
322213 Setup paperboard box manufacturing                                       1.0        35   3.0
322214 Fiber can, tube, drum, and similar products manufacturing                0.5        47   1.6
323111 Commercial gravure printing                                              1.0        38   2.9
323114 Quick printing                                                           1.0         2   4.8
323115 Digital printing                                                         0.6         2   8.6
323122 Prepress services                                                        0.5      100    1.3
324110 Petroleum refineries                                                     0.5      130    0.7
324199 All other petroleum and coal products manufacturing                      0.9        20   2.8
325110 Petrochemical manufacturing                                              0.3        19   2.0
325181 Alkalies and chlorine manufacturing                                      1.3        24   1.2
325188 All other basic inorganic chemical manufacturing                         0.8      201    1.4
325199 All other basic organic chemical manufacturing                           0.9      248    1.6
325221 Cellulosic organic fiber manufacturing                                   0.8         8   9.9
325222 Noncellulosic organic fiber manufacturing                                1.3        25   1.4
325311 Nitrogenous fertilizer manufacturing                                     0.9        20   0.5
325312 Phosphatic fertilizer manufacturing                                      1.1         8   2.7
325411 Medicinal and botanical manufacturing                                    1.3        55   1.8
325412 Pharmaceutical preparation manufacturing                                 1.1      517    2.0
325413 In-vitro diagnostic substance manufacturing                              1.3        26   1.2
325414 Biological product (except diagnostic) manufacturing                     1.1        85   1.8
325611 Soap and other detergent manufacturing                                   1.3        56   2.4
325910 Printing ink manufacturing                                               0.7        37   2.1
325992 Photographic film, paper, plate, and chemical manufacturing              1.3        34   3.5
325998 All other miscellaneous chemical product and preparation manufacturing   1.2      180    2.0
327420 Gypsum product manufacturing                                             0.9        81   1.6
331315 Aluminum sheet, plate, and foil manufacturing                            1.1        42   2.7

20
   DART rates are from the BLS publication “Table 1: Incidence rates of nonfatal occupational injuries and illnesses

by industry and case types, 2009.”

21
   ODI survey data obtained from OSHA on June 13, 2011.

22
   Industry descriptions are from 2007 NAICS search tool on U.S. Census webpage.


                                                                                            Audit of SST Program
                                                          27                         Report No. 02-12-202-10-105
                                                 U.S. Department of Labor – Office of Inspector General



Table 2-A: 124 Low-Hazard Industries Included in ODI
                           20                                                                   21
2009 DART Rate from BLS and Total Worksites and Average DART Rate from the 2009 ODI Survey
NAICS                                                                              BLS   ODI Survey
                               22
Code    Industry Description                                                      DART  Worksites DART
332993 Ammunition (except small arms) manufacturing                                 0.9        21   2.6
332995 Other ordnance and accessories manufacturing                                 0.7        14   2.6
333220 Plastics and rubber industry machinery manufacturing                         1.2        28   4.7
333293 Printing machinery and equipment manufacturing                               1.1        49   1.7
333295 Semiconductor machinery manufacturing                                        0.7        32   1.4
333313 Office machinery manufacturing                                               1.0        26   1.9
333314 Optical instrument and lens manufacturing                                    1.3      137    1.3
333516 Rolling mill machinery and equipment manufacturing                           1.3        17   4.1
333611 Turbine and turbine generator set units manufacturing                        1.2        36   2.8
333618 Other engine equipment manufacturing                                         1.3        44   3.2
333993 Packaging machinery manufacturing                                            1.2        78   2.0
333996 Fluid power pump and motor manufacturing                                     1.2        23   2.3
334111 Electronic computer manufacturing                                            0.3      144    0.9
334112 Computer storage device manufacturing                                        0.5        79   0.3
334113 Computer terminal manufacturing                                              0.1        36   0.8
334119 Other computer peripheral equipment manufacturing                            0.5      227    0.9
334210 Telephone apparatus manufacturing                                            0.5      193    0.6
334220 Radio and television broadcasting and wireless communications equip. mfg.    0.8      390    1.4
334290 Other communications equipment manufacturing                                 1.2      170    2.0
334411 Electron tube manufacturing                                                  1.3        26   1.4
334413 Semiconductor and related device manufacturing                               0.4      473    0.8
334418 Printed circuit assembly (electronic assembly) manufacturing                 0.7      297    1.2
334510 Electromedical, and electrotherapeutic apparatus manufacturing               0.6      195    1.1
334511 Search, detection, navigation, guidance, aeronautical, and nautical system   0.6      274    0.7
        and instrument mfg.
334512 Automatic environmental control manufacturing for residential,               1.0        97   1.6
        commercial, and appliance use
334513 Inst. and related products mfg. for measuring, displaying, and controlling   1.0      277    1.3
        ind. process variables
334515 Inst. mfg. for measuring and testing electricity and electrical signals      0.6      192    0.8
334516 Analytical laboratory instrument manufacturing                               1.0      169    1.0
334517 Irradiation apparatus manufacturing                                          0.6        42   0.8
334613 Magnetic and optical recording media manufacturing                           1.2        63   1.2
335222 Household refrigerator and home freezer manufacturing                        1.1        18   2.5
335314 Relay and industrial control manufacturing                                   0.7      268    1.8
335999 All other miscellaneous electrical equipment and component mfg.              1.1      338    1.7
336414 Guided missile and space vehicle manufacturing                               0.6        30   0.8
336415 Guided missile and space vehicle propulsion unit and parts mfg.              0.8        17   0.8
336419 Other guided missile and space vehicle parts and auxiliary equipment mfg.    0.7        19   2.0
339112 Surgical and medical instrument manufacturing                                1.1      498    1.5
339116 Dental laboratories                                                          0.4         1   1.1
339911 Jewelry (except costume) manufacturing                                       1.3      118    0.8
339932 Game, toy, and children's vehicle manufacturing                              1.0        79   1.8
441120 Used car dealers                                                             1.1         2   0.8
442210 Floor covering stores                                                        0.9         2   0.0
443120 Computer and software stores                                                 0.5         2   0.0
444210 Outdoor power equipment stores                                               0.5         1   3.7
446110 Pharmacies and drug stores                                                   1.0         2   1.8
448150 Clothing accessories stores                                                  0.7         1   0.0
454111 Electronic shopping                                                          1.0         3   1.6
454113 Mail-order houses                                                            1.3        15   2.2
481112 Scheduled freight air transportation                                         1.0        26   4.7
483114 Coastal and great lakes passenger transportation                             0.8         1   4.7
511120 Periodical publishers                                                        0.2      405    0.6
511130 Book publishers                                                              0.5      268    1.0
511140 Directory and mailing list publishers                                        0.5      100    0.4
511190 Other publishers                                                             0.8         1   ----


                                                                                 Audit of SST Program
                                                  28                      Report No. 02-12-202-10-105
                                                 U.S. Department of Labor – Office of Inspector General



Table 2-A: 124 Low-Hazard Industries Included in ODI
                           20                                                                 21
2009 DART Rate from BLS and Total Worksites and Average DART Rate from the 2009 ODI Survey
NAICS                                                                            BLS   ODI Survey
                              22
Code    Industry Description                                                    DART  Worksites DART
512110 Motion picture and video production                                        0.6         3    0.5
515120 Television broadcasting                                                    0.7        11    2.9
519130 Internet publishing and broadcasting and web search portals                0.1         1    ----
522220 Sales financing                                                            0.2         3    0.0
522320 Financial transactions processing, reserve, and clearinghouse activities   0.3         1    0.0
523930 Investment advice                                                          0.1         1    0.0
541330 Engineering services                                                       0.5        45    0.2
541510 Computer systems design and related services                               0.2         1    ----
541511 Custom computer programming services                                       0.1         9    0.0
541512 Computer systems design services                                           0.2        12    0.1
541513 Computer facilities management services                                    0.4         2    0.0
541519 Other computer related services                                            0.2         3    0.3
541620 Environmental consulting services                                          0.3         3    3.3
541690 Other scientific and technical consulting services                         0.1         3    0.0
541910 Marketing research and public opinion polling                              0.3         1    0.0
541990 All other professional, scientific, and technical services                 0.3         7    1.8
561310 Employment placement agencies and executive search services                0.4         3    2.8
561320 Temporary help services                                                    1.0        11    1.5
561410 Document preparation services                                              0.1         1    0.0
561510 Travel agencies                                                            0.2         2   20.8
621111 Offices of physicians (except mental health specialists)                   0.3         4    0.0
713930 Marinas                                                                    1.2        40    4.0
713940 Fitness and recreational sports centers                                    1.2         9    1.5
722211 Limited-service restaurants                                                1.2         2    0.0
812930 Parking lots and garages                                                   1.2         3    5.8
812990 All other personal services                                                0.4         2    1.3
        Total Worksites Surveyed in ODI from Low-Hazard Industries                        8,745




                                                                                 Audit of SST Program
                                                  29                      Report No. 02-12-202-10-105
                                                      U.S. Department of Labor – Office of Inspector General


B. 53 Industries with Higher than Average DART rates and not included in SST program –
   Excludes industries with less than 20 employees at worksites

                                                             23
 Table 2-B Industries with higher than Average DART rates -- not included in the 2010 SST program and
                                                                                                        24
 had 2008 inspections at worksites with 20 or more employees and reported severe injuries and illnesses
NAICS                                                                          BLS Worksites Injuries and
                                 25
Code      Industry Description                                                DART Inspected      Illnesses
111140 Wheat farming                                                            3.7       1              1
111219 Other vegetable (except potato) and melon farming                        3.2      14             14
111320 Citrus (except orange) groves                                            2.6       1              1
111331 Apple orchards                                                           2.6       2              2
111332 Grape vineyards                                                          2.6       7              7
111333 Strawberry farming                                                       2.6       1              1
111335 Tree nut farming                                                         2.6       1              1
111336 Fruit and tree nut combination farming                                   2.6       2              2
111339 Other noncitrus fruit farming                                            2.6       3              3
111421 Nursery and tree production                                              2.7       1              1
111910 Tobacco farming                                                          2.2       1              1
111920 Cotton farming                                                           2.2       0              1
111992 Peanut farming                                                           2.2       1              1
111998 All other miscellaneous crop farming                                     2.2       6              6
115111 Cotton ginning                                                           2.8       2              2
115113 Crop harvesting, primarily by machine                                    2.8       7              7
115114 Postharvest crop activities (except cotton ginning)                      3.5      12             14
115115 Farm labor contractors and crew leaders                                  2.4      26             29
115116 Farm management services                                                 2.8       4              4
115210 Support activities for animal production                                 2.7       2              2
115310 Support activities for forestry                                          2.0       1             11
212319 Other crushed and broken stone mining and quarrying                      2.2       2              2
221121 Electric bulk power transmission and control                             2.0       1              1
221122 Electric power distribution                                              2.0      15             15
221210 Natural gas distribution                                                 2.5       3              4
424510 Grain and field bean merchant wholesalers                                2.2       1              1
424930 Flower, nursery stock, and florists supplies merchant wholesalers        2.1       1              1
441310 Automotive parts and accessories stores                                  2.3       1              1
441320 Tire dealers                                                             2.7       3              3
442110 Furniture stores                                                         2.5       1              1
442299 All other home furnishing stores                                         2.9       1              1
444220 Nursery, garden center, and farm supply stores                           2.9       2              2
452910 Warehouse clubs and supercenters                                         3.8       6              6
452990 All other general merchandise stores                                     2.8       5              5
453310 Used merchandise stores                                                  2.7       2              2
454311 Heating oil dealers                                                      3.0       1              1
454312 Liquefied petroleum gas (bottled gas) dealers                            3.0       2              2
483211 Inland water freight transportation                                      2.4       1              1
488210 Support activities for rail transportation                               2.9       4              4
488410 Motor vehicle towing                                                     2.2       1              1
488999 All other support activities for transportation                          3.7       2              2
532310 General rental centers                                                   3.5       3              3
532490 Other commercial and industrial machinery and equipment rental/leasing   2.2       2              2
541320 Landscape architectural services                                         2.2       2              2
541940 Veterinary services                                                      3.4       1              1
561710 Exterminating and pest control services                                  2.4       3              3
562998 All other miscellaneous waste management services                        2.7       2              2
624310 Vocational rehabilitation services                                       3.2       2              2
712130 Zoos and botanical gardens                                               2.4       2              2

23
   DART rates are from the closest matching NAICS codes included in the BLS publication “Table 1: Incidence rates

of nonfatal occupational injuries and illnesses by industry and case types, 2009.”

24
   OSHA provided data files of 2008 inspections from its Integrated Management Information System (IMIS) records.

25
   Industry descriptions are from 2007 NAICS search tool on U.S. Census webpage.


                                                                                         Audit of SST Program
                                                        30                        Report No. 02-12-202-10-105
                                                    U.S. Department of Labor – Office of Inspector General


                                                          23
 Table 2-B Industries with higher than Average DART rates -- not included in the 2010 SST program and
                                                                                                        24
 had 2008 inspections at worksites with 20 or more employees and reported severe injuries and illnesses
NAICS                                                                         BLS Worksites Injuries and
                               25
Code      Industry Description                                              DART Inspected        Illnesses
713110 Amusement and theme parks                                               4.4        7              9
713910 Golf courses and country clubs                                          2.0        5              5
722310 Food service contractors                                                2.1        1              1
812331 Linen supply                                                            2.5        1              1
53 Industries – Total Worksites and Injuries/Illnesses                                  181            200




                                                                                     Audit of SST Program
                                                     31                       Report No. 02-12-202-10-105
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              Audit of SST Program
               32                      Report No. 02-12-202-10-105
                                                        U.S. Department of Labor – Office of Inspector General



                                                                                                     Exhibit 3
Summary by State of Worksites Targeted and Inspected

Number of worksites were combined with DART rates (worksites x average DART) and
indexed. 26 Categories were: Highest (over 10,000); Higher than Average (5,000 to
9,999); Average (1,000 to 4,999) and Lower than Average (under 1,000). The same
categories and index ranges were used for both maps.
                                               27                   28
Summary by State of Worksites Targeted              and Inspected
                      Worksites        Avg.                   Worksites    Avg.                  Index
                                                                                                     29
State                  Targeted       DART          Index     Inspected   DART       Index    Percent
Alabama                     261        9.32         2,433            64   11.02        705         29%
Alaska                                                                                           X-ODI
Arizona                                                              1    18.09         18       X-ODI
Arkansas                     139       8.84          1,229           1     5.08          5          0%
California                 1,491      12.07         17,996           2     9.29         19          0%
Colorado                     225      10.81          2,432          74    12.81        948         39%
Connecticut                  329      11.05          3,635          47    13.00        611         17%
Delaware                      31      10.72            332          16    10.07        161         48%
Florida                      441       9.78          4,313         206    10.37      2,136         50%
Georgia                      316       9.65          3,049         106    11.21      1,188         39%
Hawaii                        59       9.44            557                                          0%
Idaho                        104      10.51          1,093           35   11.66        408         37%
Illinois                     693       9.24          6,403            1   17.56         18          0%
Indiana                      565       9.80          5,537           33    8.27        273          5%
Iowa                         309      11.28          3,486           94   12.38      1,164         33%
Kansas                       178       8.97          1,597           59    9.70        572         36%
Kentucky                     333      10.45          3,480                                          0%
Louisiana                    104       8.96            932          23    12.64        291         31%
Maine                        157      12.29          1,930          95    12.68      1,205         62%
Maryland                     189       9.66          1,826          15    12.79        192         11%
Massachusetts                377       9.58          3,612         120     9.97      1,196         33%
Michigan                     707       9.88          6,985                                          0%
Minnesota                    404      10.45          4,222                                          0%
Mississippi                  162       8.48          1,374           33    9.62        317         23%
Missouri                     293       9.46          2,772           88   11.19        985         36%
Montana                       63      11.01            694           16   13.69        219         32%
Nebraska                     106       9.42            999           28   11.16        312         31%
Nevada                        65      10.39            675                                          0%
New Hampshire                110      10.39          1,143                                          0%
New Jersey                   357       9.54          3,406         128     9.83      1,258         37%
New Mexico                    54      12.80            691                                          0%
New York                     608       9.28          5,642         139    10.18      1,415         25%
North Carolina               502       9.09          4,563         168     9.12      1,532         34%
North Dakota                  38      10.53            400           5    13.22         66         17%
Ohio                         663       9.19          6,093         103    10.77      1,109         18%
Oklahoma                     193      10.31          1,990           6     8.65         52          3%
Oregon                         1                                                                 X-ODI
Pennsylvania                 973      10.20          9,925         219    11.14      2,440         25%
Rhode Island                  97       9.70            941          25    11.86        297         32%
South Carolina                                                                                   X-ODI
South Dakota                  58        9.83          570            16   11.40        182         32%

26
   Index = Number of Worksites times the Average DART per worksite.
27
   Worksites targeted with average DART rates were calculated from OSHA lists of primary and secondary worksites
selected for the SST program, plus worksites in state plan states that met OSHA’s criteria for SST targeting.
28
   Worksites inspected were determined by reconciling SST inspections as of September 2011 to the OSHA primary
and secondary targeting lists and worksites in state plan states that met Federal criteria for the SST program.
29
   X-ODI = State not included in ODI survey frame.

                                                                                         Audit of SST Program
                                                         33                       Report No. 02-12-202-10-105
                                                   U.S. Department of Labor – Office of Inspector General


                                           27                   28
Summary by State of Worksites Targeted          and Inspected
                       Worksites    Avg.                 Worksites        Avg.                 Index
                                                                                                   29
State                   Targeted   DART         Index    Inspected       DART       Index   Percent
Tennessee                    355    9.25        3,284           18        9.78        176         5%
Texas                        810   10.05        8,141           63       11.66        735         9%
Utah                         119   10.35        1,232                                               0
Vermont                       65   11.57          752                3    7.72         23         3%
Virginia                                                                                       X-ODI
Washington                    1                                                                X-ODI
West Virginia               136    11.24        1,529            48      12.59        604        40%
Wisconsin                   577     9.52        5,493            46      11.05        508         9%
Wyoming                       1                                                                X-ODI
District of Columbia          8    10.66           85                                             0%

 Totals                   13,827   10.09    139,470          2,144       10.87     23,315       17%




                                                                                        Audit of SST Program
                                                    34                           Report No. 02-12-202-10-105
              U.S. Department of Labor – Office of Inspector General




Appendices





                                              Audit of SST Program
               35                      Report No. 02-12-202-10-105
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              Audit of SST Program
               36                      Report No. 02-12-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix A
Background

With the Occupational Safety and Health (OSH) Act of 1970, Congress created the
Occupational Safety and Health Administration (OSHA) to ensure safe and healthful
working conditions for working men and women by setting and enforcing standards and
by providing training, outreach, education and assistance. The OSH Act covers
employers and their employees either directly through OSHA or through a state safety
and health program operating under an OSHA-approved state plan.

In 1995, OSHA began collecting information from approximately 80,000 worksites
annually under the OSHA Data Initiative (ODI). The purpose of the data collection is to
compile occupational injury and illness data from employers within specific industries
and size categories. This gives OSHA the capability of focusing on worksites with
serious safety and health programs. ODI data originates from the OSHA Form 300A
Summary of Work-Related Injuries and Illnesses, which most employers with more than
10 employees are required to maintain.

In 1999, OSHA initiated the Site-Specific Targeting (SST) program which is OSHA’s
main programmed inspection plan for non-construction workplaces that have 40 or more
employees. The SST program was created to help OSHA achieve its goal of reducing
the number of injuries and illnesses that occur at individual workplaces by directing
enforcement resources to those workplaces where the highest rate of injuries and
illness have occurred. The SST program targets worksites based on injury and illness
rates calculated from employer responses to the annual ODI survey. OSHA used the
following two rates:

   1.	 Days Away, Restricted, or Transferred (DART) rate includes cases involving
       days away from work, restricted work activity, and transfers to another job. It is
       calculated (N1 x 200,000) / EH) where N1 is the number of cases involving days
       away and/or restricted work activity, and/or job transfer; EH is the total number of
       hours worked by all employees during the calendar year; and 200,000 is the
       base number of hours worked for 100 full-time equivalent employees.

   2.	 Days Away from Work Injury and Illness (DAFWII) case rate: The DAFWII case
       rate is the number of cases that involve days away from work per 100 full-time
       equivalent employees. Cases that involve only temporary transfers to another job
       or restricted work are not included. It is calculated (N2 x 200,000) / EH) where N2
       is the number of cases involving days away from work; EH is the total number of
       hours worked by all employees during the calendar year; and 200,000 is the
       base number of hours worked for 100 full-time equivalent employees.




                                                                           Audit of SST Program
                                            37                      Report No. 02-12-202-10-105
                                         U.S. Department of Labor – Office of Inspector General



The SST targeting plan for August 2010 through September 2011 initially selected for
inspection all worksites with the following DART rates and DAFWII case rate:

   	 Manufacturing worksites with a DART rate at or above 7.0, or a DAFWII case
      rate at or above 5.0.

   	 Non-manufacturing worksites (except for Nursing and Personal Care Facilities)
      with a DART rate at or above 15.0, or a DAFWII case rate at or above 14.0.

   	 Nursing and Personal Care Facilities with a DART rate at or above 16.0, or a
      DAFWII case rate at or above 13.0.

To target high-risk hazards and industries, OSHA implemented both national and local
“emphasis” inspection programs. OSHA has 13 National Emphasis Programs (NEPs)
focusing on combustible dust; Federal agencies; flavoring chemicals/diacetyl;
hazardous machinery; hexavalent chromium; lead; nursing and residential care
facilities; primary metals industries; process safety management; recordkeeping;
shipbreaking; silica; and trenching and excavation. OSHA also has approximately 140
Regional and Local Emphasis Programs (REPs/LEPs).




                                                                         Audit of SST Program
                                          38                      Report No. 02-12-202-10-105
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

   1.	 To what extent did the SST program focus enforcement resources and targeted
       inspections on the highest risk industries and worksites?

   2.	 What was known about the effectiveness of OSHA’s program?

Scope

The audit examined the SST program for the period August 2010 through
September 2011 which was developed from rates using 2008 injury and illness data.
We performed fieldwork at OSHA headquarters in Washington, DC, and at six area
offices in Fort Lauderdale, FL; Tampa, FL; Augusta, ME; Kansas City, MO; Concord,
NH; and Harrisburg, PA.

Methodology

In performing the audit, we reviewed OSHA’s policies and procedures, and prior GAO
and OIG reports to gain an understanding of internal controls considered significant to
the audit objectives and testing compliance with Federal standards. In planning and
performing our audit, we considered if internal controls significant to the audit objectives
were properly designed and placed in operation. This included reviewing OSHA’s
policies and procedures for selecting and inspecting worksites. We confirmed our
understanding of these controls and procedures through conducting interviews and
reviewing documentation.

We assessed the reliability of ODI data on worksite injury and illness rates, SST primary
and secondary targeting lists, and related inspection information from the Integrated
Information Management System (IMIS), and OSHA Information System (OIS) data to
ensure they were appropriate for testing. We tested: ODI by verifying that the data
quality error checks were working effectively; SST by duplicating queries used to
develop the primary and secondary target lists; IMIS and OIS data through review of
judgmentally sampled inspection files from six area offices. Unaudited but publicly
available data from the Bureau of Labor Statistics (BLS) was used for data reliability
tests and report illustrations. Unaudited, publicly available information from OSHA
fatality and catastrophic injury reports were also used for report illustrations.

For the 22 states with OSHA-approved state plans, we did not evaluate the individual
state programs. Instead, we reviewed data in ODI and inspection information in IMIS.
We applied the SST program targeting criteria to the ODI data for worksites in those
states to develop targeting lists similar to the SST primary and secondary lists. We
compared these lists to SST inspections performed by the states to determine
consistency with the Federal program. We obtained testimonial and documentary

                                                                            Audit of SST Program
                                             39                      Report No. 02-12-202-10-105
                                          U.S. Department of Labor – Office of Inspector General



evidence from OSHA on the states’ programs to target high-hazard industries and
worksites.

To determine whether SST targeted the highest risk industries and worksites, we first
considered the completeness of the ODI survey data and SST targeting plan by
examining the states and industries included in ODI’s sampling frame and the size of
worksites covered by the SST program. To illustrate the impact of the ODI and SST
scope limitations for targeting high-risk worksites, we used 2008 inspections with severe
injuries and illnesses reported, and summarized the number of worksites and injuries
and illnesses in aggregate and for each scope limitation: worksites with 11 to 19
employees, worksites in 12 states, and worksites in 53 industries.

   	 We identified worksites in the ODI survey data that met the SST targeting criteria
      for DART and DAFWII by industry (see Appendix A for the specific targeting
      criteria) and summarized them by size ranges. We obtained testimonial and
      documentary evidence from OSHA and documentary evidence from OMB’s
      website on regulatory exemptions and data-use restrictions based on worksite
      size. We considered the SST program scope before and after the change in
      September 2011 to expand to worksites with 20 or more employees.

   	 We identified 12 states that were not included in the ODI survey. For 9 states, we
      used BLS’ Quarterly Census of Employment and Wages quartile data by worksite
      size (10-49; 50-249, 250-999, and 1000 or more employees) to estimate the
      number of non-construction worksites with 40 or more employees, and presented
      that along with statewide average DART and DAFWII rates for private industry.
      BLS’ quartile data did not have information for 3 states (Guam, Trust Territory of
      the Pacific Islands, and American Samoa) and we were unable to locate
      comparable data from another source.

   	 We identified industries not included in the ODI survey data which (1) had higher
      than average BLS DART and DAFWII rates in 2009, (2) had no SST inspections
      conducted between August 2010 and September 2011, and (3) had 2008
      inspections at worksites with at least 20 employees and reported severe injuries
      and illnesses.

Additionally, we considered the completeness and efficiency of the SST inspections
conducted in relation to the SST targeting lists. We reconciled worksites from the SST
inspections to the 2010 SST targeting lists, and then to the ODI survey data for
worksites not on the lists. We obtained testimonial evidence through management and
staff interviews and documentary evidence through internet research.

   	 For states and OSHA area offices with no SST inspections, we used the SST
      targeting lists to identify the number of worksites with average DART and
      DAFWII rates (excluding data identified by OSHA as questionable or unreliable).




                                                                          Audit of SST Program
                                           40                      Report No. 02-12-202-10-105
                                          U.S. Department of Labor – Office of Inspector General



   	 For inspected worksites with DART rates of 50 or more, and where OSHA
      identified the ODI data as questionable or unreliable, we searched the online ODI
      database for revised DART rates and summarized the number of citations per
      inspection.

   	 For carryover inspections of worksites targeted in 2002 through 2008, we
      searched the 2009 ODI survey data and online ODI database for updated DART
      rates and summarized inspection statistics (number of citations and hours to
      complete inspection).

To determine what is known about the effectiveness of the SST program, we obtained
testimonial and documentary evidence (through management and staff interviews,
policy and procedure reviews, audit report testing and review of ODI, IMIS and OIS
data) to support our results and conclusions.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Criteria

   	 Occupational Safety and Health Act of 1970

   	 OMB Circular A-123, Management’s Responsibility for Internal Control

   	 OSHA Directive 10-06 (CPL 02), Site-Specific Targeting 2010




                                                                          Audit of SST Program
                                           41                      Report No. 02-12-202-10-105
               U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                               Audit of SST Program
                42                      Report No. 02-12-202-10-105
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix C
Acronyms and Abbreviations

BLS                 Bureau of Labor Statistics

Cal/OSHA            California State Plan, Division of Occupational Safety and Health

DART                Days Away, Restricted, or Transferred

DAFWII              Days Away from Work Injury and Illness

IMIS                Integrated Management Information System

NAICS               North American Industry Classification System

ODI                 OSHA Data Initiative

OIS                 OSHA Information System

OMB                 Office of Management and Budget

OSH Act             Occupational Safety and Health Act of 1970

OSHA                Occupational Safety and Health Administration

OSHA Form 300A Summary of Work-Related Injuries and Illnesses

SIC                 Standard Industrial Classification System

SST                 Site-Specific Targeting Program

State plan states   25 states and 2 U.S. territories authorized to operate their own
                    safety and health program under OSHA-approved state plans

States              50 states and 6 U.S. territories covered under the OSH Act




                                                                           Audit of SST Program
                                            43                      Report No. 02-12-202-10-105
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              Audit of SST Program
               44                      Report No. 02-12-202-10-105
                                U.S. Department of Labor – Office of Inspector General



                                                                       Appendix D
OSHA Response to Draft Report




                                                                Audit of SST Program
                                 45                      Report No. 02-12-202-10-105
U.S. Department of Labor – Office of Inspector General




                                Audit of SST Program
 46                      Report No. 02-12-202-10-105
U.S. Department of Labor – Office of Inspector General




                                Audit of SST Program
 47                      Report No. 02-12-202-10-105
U.S. Department of Labor – Office of Inspector General




                                Audit of SST Program
 48                      Report No. 02-12-202-10-105
U.S. Department of Labor – Office of Inspector General




                                Audit of SST Program
 49                      Report No. 02-12-202-10-105
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              Audit of SST Program
               50                      Report No. 02-12-202-10-105
                                        U.S. Department of Labor – Office of Inspector General



                                                                               Appendix E
Acknowledgements

Key contributors to this report were Mark Schwartz, Rebecca Bowen, Danielle Brown-
Buzan, Sean Ally, Renata Hobbs, Nadeem Afzal, Badara Kamara, and Mary Louise
Casazza.




                                                                        Audit of SST Program
                                         51                      Report No. 02-12-202-10-105
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              Audit of SST Program
               52                      Report No. 02-12-202-10-105
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:


Online:    http://www.oig.dol.gov/hotlineform.htm
Email:     hotline@oig.dol.gov

Telephone: 1-800-347-3756
           202-693-6999

Fax:       202-693-7020

Address:   Office of Inspector General
           U.S. Department of Labor
           200 Constitution Avenue, N.W.
           Room S-5506
           Washington, D.C. 20210
